                                                                                          Federal Register / Vol. 77, No. 117 / Monday, June 18, 2012 / Notices                                                       36281

                                                                                                              TABLE 1—ESTIMATED ANNUAL REPORTING BURDEN 1
                                                                                                                                                                Number of                            Average
                                                                                                                                             Number of                          Total annual
                                                                                         Form                                                                 responses per                        burden per     Total hours
                                                                                                                                            respondents                          responses
                                                                                                                                                                respondent                          response

                                                  FDA 3792 .............................................................................                  9                1                   9            0.5            4.5
                                                                                                                                                                                                   (30 minutes)
                                                     1 There    are no capital costs or operating maintenance costs associated with this collection of information.


                                                    Respondents to this proposed                                          recommendations and proposals                              Background: In 1998, OIG published
                                                  collection of information would be                                      through the Federal eRulemaking Portal                  the Provider Self-Disclosure Protocol
                                                  manufacturers of biosimilar biological                                  at http://www.regulations.gov.                          (the Protocol) to establish a process for
                                                  product candidates. Based on FDA’s                                         2. By regular, express, or overnight                 health care providers to disclose
                                                  database system, there are an estimated                                 mail. You may send written comments                     potential fraud involving the Federal
                                                  18 manufacturers that fall into this                                    to the following address: Kenneth D.                    health care programs. The Protocol
                                                  category. However, not all                                              Kraft, Office of Inspector General,                     provides guidance on how to investigate
                                                  manufacturers will have submissions in                                  Department of Health and Human                          this conduct, quantify damages, and
                                                  a given year and some may have                                          Services, Attention: OIG–1301–N, Room                   report the conduct to OIG to resolve the
                                                  multiple submissions. FDA estimates 9                                   5541B, Cohen Building, 330                              provider’s liability exposure under
                                                  annual responses that include the                                       Independence Avenue SW.,                                OIG’s civil money penalty (CMP)
                                                  following: 6 INDs or BPD meetings, 2                                    Washington, DC 20201. Please allow                      authorities. Over the past 14 years, we
                                                  applications, and 1 supplement. The                                     sufficient time for mailed comments to                  have resolved over 800 disclosures,
                                                  estimated hours per response are based                                  be received before the close of the                     resulting in recovering over $280
                                                  on FDA’s past experience with other                                     comment period.                                         million to the Federal health care
                                                  submissions, which average 30 minutes.                                     3. By hand or courier. If you prefer,                programs. Through our experience in
                                                                                                                          you may deliver, by hand or courier,
                                                    Dated: June 12, 2012.                                                                                                         resolving Protocol matters, we identified
                                                                                                                          your written comments before the close
                                                  Leslie Kux,                                                                                                                     areas where additional guidance would
                                                                                                                          of the comment period to Kenneth D.
                                                  Assistant Commissioner for Policy.                                                                                              be beneficial to the provider community
                                                                                                                          Kraft, Office of Inspector General,
                                                                                                                                                                                  and would improve the efficient
                                                  [FR Doc. 2012–14740 Filed 6–15–12; 8:45 am]                             Department of Health and Human
                                                                                                                                                                                  resolution of Protocol matters.
                                                  BILLING CODE 4160–01–P                                                  Services, Cohen Building, 330
                                                                                                                          Independence Avenue SW.,                                Specifically, we issued three Open
                                                                                                                          Washington, DC 20201. Because access                    Letters to Health Care Providers to
                                                  DEPARTMENT OF HEALTH AND                                                to the interior of the Cohen Building is                address some of these issues. First, in
                                                  HUMAN SERVICES                                                          not readily available to persons without                2006 we announced an initiative to
                                                                                                                          Federal Government identification,                      encourage disclosure of conduct
                                                  Office of Inspector General                                             commenters are encouraged to schedule                   creating liability under OIG’s anti-
                                                  [Docket Number OIG–1301–N]                                              their delivery with one of our staff at                 kickback and physician self-referral law
                                                                                                                          (202) 708–9848.                                         CMP authorities. In 2008, we issued
                                                  Solicitation of Information and                                            All submissions must include the                     additional guidance and requirements
                                                  Recommendations for Revising OIG’s                                      agency name and docket number for this                  for Protocol submissions to increase the
                                                  Provider Self-Disclosure Protocol                                       Federal Register document. All                          efficiency of the Protocol, including
                                                                                                                          comments, including attachments and                     new requirements for the initial
                                                  AGENCY: Office of Inspector General                                                                                             submission and specific time
                                                  (OIG), HHS.                                                             other supporting material received, are
                                                                                                                          subject to public disclosure.                           commitments from the provider. This
                                                  ACTION: Notice and Opportunity for                                                                                              Open Letter also announced the
                                                                                                                          FOR FURTHER INFORMATION CONTACT:
                                                  Comment.                                                                                                                        presumption of not requiring a
                                                                                                                          Kenneth D. Kraft, Department of Health
                                                  SUMMARY:    This Federal Register notice                                and Human Services, Office of Inspector                 compliance agreement as part of settling
                                                  informs the public that OIG: (1) Intends                                General, Office of External Affairs, at                 a cooperative and complete disclosure.
                                                  to update the Provider Self-Disclosure                                  (202) 708–9848.                                         Finally, in 2009, we stated we would no
                                                  Protocol (63 FR 58399, October 30,                                      SUPPLEMENTARY INFORMATION: Inspection                   longer accept disclosure of a matter into
                                                  1998) and (2) solicits input from the                                   of Public Comments: All comments                        the Protocol that involved only liability
                                                  public for OIG to consider in updating                                  received before the end of the comment                  under the physician self-referral law in
                                                  the Protocol.                                                           period are available for viewing by the                 the absence of a colorable anti-kickback
                                                  DATES: To ensure consideration, public                                  public. All comments will be posted on                  violation. We also announced a
                                                  comments must be delivered to the                                       http://www.regulations.gov after they                   minimum $50,000 settlement amount
                                                  address provided below by no later than                                 have been received. Comments received                   for kickback-related submissions.
                                                  5 p.m. on August 17, 2012.                                              timely will also be available for public                   After over a decade of experience in
                                                  ADDRESSES: In commenting, please refer                                  inspection as they are received at Office               resolving Protocol disclosures, we are
mstockstill on DSK4VPTVN1PROD with NOTICES




                                                  to file code OIG–1301–N. Because of                                     of Inspector General, Department of                     considering revising the Protocol to
                                                  staff and resource limitations, we cannot                               Health and Human Services, Cohen                        provide additional guidance. We are
                                                  accept comments by facsimile (FAX)                                      Building, 330 Independence Avenue                       soliciting comments, recommendations,
                                                  transmission.                                                           SW., Washington, DC 20201, Monday                       and other suggestions from concerned
                                                     You may submit comments in one of                                    through Friday of each week from 8:30                   parties and organizations on how best to
                                                  three ways (no duplicates, please):                                     a.m. to 4 p.m. To schedule an                           revise the Protocol to address relevant
                                                     1. Electronically. You may submit                                    appointment to view public comments,                    issues and to provide useful guidance to
                                                  electronic comments on specific                                         phone (202) 708–9848.                                   the health care industry.


                                             VerDate Mar<15>2010        17:02 Jun 15, 2012       Jkt 226001      PO 00000       Frm 00032    Fmt 4703   Sfmt 4703   E:\FR\FM\18JNN1.SGM   18JNN1
                                                  36282                          Federal Register / Vol. 77, No. 117 / Monday, June 18, 2012 / Notices

                                                    Dated: June 8, 2012.                                  promoter. This reporter system enables                    • Accurate permeability modeling of
                                                  Daniel R. Levinson,                                     an easier measurement of VCAM                          anti-cancer therapeutics
                                                  Inspector General.                                      expression and determination of the                       • Personalized Medicine
                                                  [FR Doc. 2012–14585 Filed 6–15–12; 8:45 am]             effect of HDL on endothelial cell                         Development Stage:
                                                                                                          inflammation. This technology can be                      • Early-stage
                                                  BILLING CODE 4152–01–P
                                                                                                          used to screen for the effect of drugs that               • Pre-clinical
                                                                                                          modulate HDL metabolism and it is                         Inventors: Byungkook Lee (NCI),
                                                                                                          more convenient than doing Western                     Youngshang Pak (EM), Ira Pastan (NCI).
                                                  DEPARTMENT OF HEALTH AND                                                                                          Publications:
                                                  HUMAN SERVICES                                          blots.
                                                                                                             Potential Commercial Applications:                  1. Fujimori K, et al. A modeling analysis
                                                  National Institutes of Health                              • Study of prevention of                               of monoclonal antibody percolation
                                                                                                          atherosclerosis                                           through tumors: a binding-site barrier.
                                                  Government-Owned Inventions;                               • Screen serum for the effect of HDL                   J Nucl Med. 1990 Jul;31(7):1191–1198.
                                                  Availability for Licensing                              on endothelial cell inflammation                          [PMID 2362198]
                                                                                                             • Screen for the effect of drugs that               2. Jain RK. Delivery of molecular and
                                                  AGENCY: National Institutes of Health,                                                                            cellular medicine to solid tumors.
                                                                                                          modulate HDL metabolism
                                                  Public Health Service, HHS.                                                                                       Adv Drug Deliv Rev. 2001 Mar
                                                                                                             Competitive Advantages:
                                                  ACTION: Notice.                                            • Easy monitoring of down regulation                   1;46(1–3):149–168. [PMID 11259838]
                                                                                                          of VCAM with luciferase                                3. Thurber GM, et al. Antibody tumor
                                                  SUMMARY:   The inventions listed below                                                                            penetration: transport opposed by
                                                                                                             • More convenient than doing
                                                  are owned by an agency of the U.S.                                                                                systemic and antigen-mediated
                                                                                                          Western blots
                                                  Government and are available for                                                                                  clearance. Adv Drug Deliv Rev. 2008
                                                                                                             Development Stage: In vitro data
                                                  licensing in the U.S. in accordance with                                                                          Sep;60(12):1421–1434. [PMID
                                                                                                          available.
                                                  35 U.S.C. 207 to achieve expeditious                                                                              18541331]
                                                                                                             Inventor: Alan T. Remaley (NHLBI).
                                                  commercialization of results of                            Publication: D’Souza W, et al.                      4. Li Y, et al. Delivery of nanomedicines
                                                  federally-funded research and                           Structure/function relationships of                       to extracellular and intracellular
                                                  development. Foreign patent                             apolipoprotein a-I mimetic peptides:                      compartments of a solid tumor. Adv
                                                  applications are filed on selected                      Implications for antiatherogenic                          Drug Deliv Rev. 2012 Jan;64(1):29–39.
                                                  inventions to extend market coverage                    activities of high-density lipoprotein.                   [PMID 21569804]
                                                  for companies and may also be available                 Circ Res. 2010 Jul 23;107(2):217–27.                   5. http://www.accelereyes.com/
                                                  for licensing.                                          [PMID 20508181].                                          examples/drug_delivery_model
                                                  FOR FURTHER INFORMATION CONTACT:                           Intellectual Property: HHS Reference                6. Pak Y, et al. Antigen shedding may
                                                  Licensing information and copies of the                 No. E–149–2012/0—Research Tool.                           improve efficiencies for delivery of
                                                  U.S. patent applications listed below                   Patent protection is not being pursued                    antibody-based anticancer agents in
                                                  may be obtained by writing to the                       for this technology.                                      solid tumors. Can Res. 2012 May 4;
                                                  indicated licensing contact at the Office                  Licensing Contact: Fatima Sayyid,                      Epub ahead of print, doi: 10.1158/
                                                  of Technology Transfer, National                        M.H.P.M.; 301–435–4521;                                   0008–5472.CAN–11–3925. [PMID
                                                  Institutes of Health, 6011 Executive                    Fatima.Sayyid@nih.hhs.gov.                                22562466]
                                                  Boulevard, Suite 325, Rockville,                           Collaborative Research Opportunity:                    Intellectual Property: HHS Reference
                                                  Maryland 20852–3804; telephone: 301–                    The Cardiovascular & Pulmonary                         No. E–060–2012/0—Software. Patent
                                                  496–7057; fax: 301–402–0220. A signed                   Branch, NHLBI/NIH, is seeking                          protection is not being pursued for this
                                                  Confidential Disclosure Agreement will                  statements of capability or interest from              technology.
                                                  be required to receive copies of the                    parties interested in collaborative                       Licensing Contact: Michael
                                                  patent applications.                                    research to further develop, evaluate or               Shmilovich; 301–435–5019;
                                                  Endothelial Cell Line To Study                          commercialize endothelial cells to study               mish@codon.nih.gov.
                                                  Prevention of Atherosclerosis                           prevention of atherosclerosis. For                        Collaborative Research Opportunity:
                                                                                                          collaboration opportunities, please                    The NCI, CCR, Laboratory of Molecular
                                                     Description of Technology:                           contact Dr. Alan Remaley at                            Biology is seeking statements of
                                                  Atherosclerosis underlies most cases of                 aremaley1@cc.nih.gov.                                  capability or interest from parties
                                                  cardiovascular disease (CVD), which is                                                                         interested in collaborative research to
                                                  now the major cause of morbidity and                    Software for Modeling Tumor Delivery                   further develop, evaluate or
                                                  mortality in developed countries. An                    and Penetration of Antibody-Toxin                      commercialize targeted delivery of anti-
                                                  inflammatory reaction is an essential                   Anti-Cancer Conjugates                                 cancer agents in solid tumors. For
                                                  component in the appearance and                           Description of Technology: Available                 collaboration opportunities, please
                                                  development of an atherosclerotic                       for licensing is software for modeling                 contact John Hewes, Ph.D. at
                                                  lesion. The inflammatory process is                     permeability and concentration of                      hewesj@mail.nih.gov.
                                                  associated with the expression of                       intravenously administered antibody
                                                  adhesion molecules such as vascular                                                                            Mouse Model of STAT5 for the Drug
                                                                                                          anti-cancer agent conjugates in solid
                                                  cell adhesion molecule (VCAM) at the                                                                           Screen and the Research of Cancer and
                                                                                                          tumor. The models can be used to
                                                  surface of endothelial cells.                                                                                  Autoimmunity
                                                                                                          determine optimal dosing regimen of a
                                                  Antiatherogenic lipoprotein, high                       therapeutic in a particular cancer type.                  Description of Technology: The
mstockstill on DSK4VPTVN1PROD with NOTICES




                                                  density lipoprotein (HDL), is known to                  Thirty factors that affect delivery rates              invention is a STAT5 mutant mouse
                                                  down regulate the expression of VCAM.                   and efficiencies are analyzed as                       that can be used in research related to
                                                  Increasing levels of HDL is a promising                 variables in generating the models.                    cancer, autoimmunity and infectious
                                                  way to reduce the risk of CVD.                            Potential Commercial Applications:                   diseases as well as drug screening. The
                                                     This technology is directed to the                     • Drug Design                                        mouse model itself has multiple
                                                  generation of a stable endothelial cell                   • Combination Therapy                                immunological defects resulting in
                                                  line expressing a luciferase reporter                     • Personalized Medicine                              formation of STAT5 dimers but not
                                                  construct driven by the VCAM                              Competitive Advantages:                              tetramers.


                                             VerDate Mar<15>2010   17:02 Jun 15, 2012   Jkt 226001   PO 00000   Frm 00033   Fmt 4703   Sfmt 4703   E:\FR\FM\18JNN1.SGM   18JNN1
